                                  SOCIAL SECURITY

MEMORANDUM

Date:   October 8, 2002                                                    Refer To:

To:        Carmen Maria Keller
           Regional Commissioner
            for Seattle

From:      Assistant Inspector General
            for Audit

Subject:   Financial-Related Audit of the Washington State Department of Social and Health
           Services – An Organizational Representative Payee for the Social Security Administration
           (A-13-02-12010)


        Attached is a copy of our final report. Our objectives were to determine whether the
        Washington State Department of Social and Health Services (1) had effective
        safeguards over the receipt and disbursement of Social Security benefits and
        (2) ensured Social Security benefits were used and accounted for in accordance with
        the Social Security Administration’s policies and procedures.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Shirley Todd, Director of General Management
        Audit Division, at (410) 966-9365.




                                                        Steven L Schaeffer

        Attachment
        cc:
        Fritz Streckewald
        JoEllen Felice
        Candace Skurnik
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


  FINANCIAL-RELATED AUDIT OF THE
   WASHINGTON STATE DEPARTMENT
 OF SOCIAL AND HEALTH SERVICES – AN
  ORGANIZATIONAL REPRESENTATIVE
        PAYEE FOR THE SOCIAL
      SECURITY ADMINISTRATION

   October 2002      A-13-02-12010
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                       Executive Summary
OBJECTIVE
Our objectives were to determine whether the Washington State Department of Social
and Health Services (WSDSHS) (1) had effective safeguards over the receipt and
disbursement of Social Security benefits and (2) ensured Social Security benefits were
used and accounted for in accordance with the Social Security Administration’s (SSA)
policies and procedures.

BACKGROUND
Some individuals cannot manage or direct the management of their finances because of
their youth or mental and/or physical impairments. Congress granted SSA the authority
to appoint representative payees (Rep Payee) to receive and manage these
beneficiaries’1 payments. A Rep Payee may be an individual or an organization. SSA
selects Rep Payees for Old-Age, Survivors and Disability Insurance beneficiaries or
Supplemental Security Income recipients when representative payments would serve
the individual’s interests.

Rep Payees are responsible for using benefits in the beneficiary’s best interests. Their
duties include:

·    using benefits to meet the beneficiary’s current and foreseeable needs;

·    conserving and investing benefits not needed to meet the beneficiary’s current
     needs;

·    maintaining accounting records of how the benefits are received and used;

·    reporting events to SSA that may affect the beneficiary’s entitlement or benefit
     payment amount;

·    reporting any changes in circumstances that would affect their performance as a
     Rep Payee; and

·    providing SSA an annual Representative Payee Report accounting for how benefits
     were spent and invested.




1
  We use the term “beneficiary” generically in this report to refer to both Old-Age, Survivors and Disability
Insurance beneficiaries and Supplemental Security Income recipients.


Financial-Related Audit of WSDSHS – An Organizational Rep Payee for SSA (A-13-02-12010)                         i
RESULTS OF REVIEW
Our audit showed that WSDSHS generally (1) had effective safeguards over the receipt
and disbursement of Social Security benefits and (2) ensured Social Security benefits
were used and accounted for in accordance with SSA’s policies and procedures.
However, we identified two areas where WSDSHS could improve its performance as a
Rep Payee.

Ø WSDSHS held $1.2 million in conserved funds in 2 bank accounts for
  241 beneficiaries. We found that WSDSHS’ bank accounts were not properly titled
  to show the funds belonged to the SSA beneficiaries. In addition, the accounts did
  not meet the Federal Deposit Insurance Corporation requirements to be properly
  insured. As a result, approximately $1 million in beneficiary funds were at-risk of
  loss.

Ø WSDSHS receives approximately 1,600 monthly benefit payments by check.
  However, WSDSHS’ operational efficiencies and safeguards over beneficiary
  receipts would be improved if it received those payments by direct deposit.
  WSDSHS recognizes the benefits of direct deposit and plans to use it when its new
  accounting system is implemented in about 1 year.

We also identified two areas where SSA needs to improve its monitoring of Rep
Payees. Specifically:

Ø SSA did not record in its Representative Payee System (RPS) 10 beneficiaries in
  WSDSHS’ care. We provided SSA the names of the affected beneficiaries so it
  could add them to the RPS.

Ø SSA could not provide 17 of the 30 RPRs we requested (see Other Matters). We
  therefore could not determine whether WSDSHS properly reported to SSA how
  benefits were spent and invested.

Finally, we learned that WSDSHS may have to repay approximately $77 million to
former and current SSA beneficiaries in its care. In October 2001, the Washington
State Supreme Court ruled that WSDSHS was holding itself out as a creditor of SSA
beneficiaries and therefore was violating the Social Security Act. In its decision, the
State Supreme Court held that WSDSHS is prohibited from using a foster child's Old-
Age, Survivors and Disability Insurance or Supplemental Security Income benefit
payments to pay the costs the State incurs in providing that child with foster care,
including food, shelter, and clothing. In March 2002, WSDSHS filed a petition for writ of
certiorari with the U.S. Supreme Court. On May 28, 2002 the U.S. Supreme Court
granted the petition. The Supreme Court also stayed enforcement of the State Court’s
judgment pending issuance of a final decision and mandate by the Supreme Court.




Financial-Related Audit of WSDSHS – An Organizational Rep Payee for SSA (A-13-02-12010)   ii
On March 1, 2002, the Solicitor General for the United States filed a brief on behalf of
WSDSHS. In the brief, the Solicitor General noted that the Commissioner of SSA has
consistently stated that it is permissible for a State entity, as a Rep Payee, to use a
foster child's Old-Age, Survivors and Disability Insurance or Supplemental Security
Income benefits to offset the costs of providing that child care (see Other Matters). We
offer no opinion on this litigation nor do we address SSA’s policy of permitting State
entities serving as Rep Payee to use a foster child’s benefits to offset associated State
costs. We did not consider the State Court’s ruling in connection with this audit.

CONCLUSIONS AND RECOMMENDATIONS
Generally, WSDSHS (1) had effective safeguards over the receipt and disbursement of
Social Security benefits and (2) did ensure that Social Security benefits were used and
accounted for in accordance with SSA’s policies and procedures. However, WSDSHS
should title its bank accounts to reflect the interest of SSA beneficiaries and use direct
deposit to improve operational efficiency and safeguards over receipt of beneficiary
payments. Also, SSA could improve the information about WSDSHS contained in the
RPS. We recommend that SSA:

1. Direct WSDSHS to change its bank account titles to show that conserved funds
   belong to the beneficiaries and to ensure the Federal Deposit Insurance Corporation
   insures each beneficiary for $100,000.

2. Ensure that WSDSHS uses direct deposit for all beneficiaries in its care.

3. Correct RPS to include all beneficiaries for whom WSDSHS was selected as Rep
   Payee.

AGENCY COMMENTS
SSA agreed with all of our recommendations. SSA also reported that corrective actions
had already been completed on two of the findings. (See Appendix A for the full text of
SSA’s comments.)

REP PAYEE COMMENTS
We requested WSDSHS to comment on the findings and recommendations related to
its duties as a Rep Payee (Recommendations 1 and 2).

WSDSHS stated it re-titled benefit accounts to ensure all beneficiaries’ funds are
protected from loss. WSDSHS also agreed to implement direct deposit for all
beneficiaries in its care. (See Appendix B for the full text of WSDSHS’ comments.)




Financial-Related Audit of WSDSHS – An Organizational Rep Payee for SSA (A-13-02-12010)      iii
                                                                            Table of Contents
                                                                                                                         Page

INTRODUCTION............................................................................................................. 1

RESULTS OF REVIEW .................................................................................................. 4

   Bank Accounts Were Not Properly Titled ................................................................... 4

   Direct Deposit Was Not Being Used .......................................................................... 5

   Not All Beneficiaries Were Recorded In the Representative Payee
     System ................................................................................................................... 6

CONCLUSIONS AND RECOMMENDATIONS .............................................................. 7

OTHER MATTERS ........................................................................................................ 8

         Representative Payee Reports ............................................................................ 8

         Washington State Supreme Court Decision ........................................................ 8

APPENDICES

APPENDIX A – Agency Comments

APPENDIX B – Representative Payee’s Comments

APPENDIX C – OIG Contacts and Staff Acknowledgments




Financial-Related Audit of WSDSHS – An Organizational Rep Payee for SSA (A-13-02-12010)
                                                                      Acronyms
FDIC                        Federal Deposit Insurance Corporation

OASDI                       Old-Age, Survivors and Disability Insurance

POMS                        Program Operations Manual System

Rep Payee                   Representative Payee

RPR                         Representative Payee Report

RPS                         Representative Payee System

SSA                         Social Security Administration

SSI                         Supplemental Security Income

WSDSHS                      Washington State Department of Social and Health Services




Financial-Related Audit of WSDSHS – An Organizational Rep Payee for SSA (A-13-02-12010)   ii
                                                                   Introduction
OBJECTIVE
Our objectives were to determine whether the Washington State Department of Social
and Health Services (WSDSHS) (1) had effective safeguards over the receipt and
disbursement of Social Security benefits and (2) ensured Social Security benefits were
used and accounted for in accordance with the Social Security Administration’s (SSA)
policies and procedures.

BACKGROUND
Some individuals cannot manage or direct the management of their finances because of
their youth or mental and/or physical impairments. Congress granted SSA the authority
to appoint representative payees (Rep Payee) to receive and manage these
beneficiaries’ and recipients’ benefit payments.2 A Rep Payee may be an individual or
an organization. SSA selects Rep Payees for Old-Age, Survivors and Disability
Insurance (OASDI) beneficiaries or Supplemental Security Income (SSI) recipients
when representative payments would serve the individual’s interest.

Rep Payees are responsible for using benefits to serve the beneficiary’s best interests.
Their duties include: 3

·     using benefits to meet the beneficiary’s current and foreseeable needs;

·     conserving and investing benefits not needed to meet the beneficiary’s current
      needs;

·     maintaining accounting records of how the benefits are received and used;

·     reporting events to SSA that may affect the individual's entitlement or benefit
      payment amount;

·     reporting any changes in circumstances that would affect their performance as a
      Rep Payee; and

·     providing SSA an annual Representative Payee Report (RPR) accounting for how
      benefits were spent and invested.




2
    42 U.S.C. §§ 405(j) and 1383(a)(2).
3
    Id.; 20 C.F.R. Part 404, Subpart U, and Part 416, Subpart F.


Financial-Related Audit of WSDSHS – An Organizational Rep Payee for SSA (A-13-02-12010)    1
About 7 million individuals have Rep Payees—approximately 4.4 million are OASDI
beneficiaries, 2 million are SSI recipients, and 600,000 are entitled to both OASDI and
SSI. The following chart reflects the types of Rep Payees and the number of individuals
they serve.

                                                      Number               Number of
              Type of Rep Payee                          of                Individuals
                                                     Rep Payees              Served
 Individual Payees: Parents, Spouses,
 Adult Children, Relatives, and Others                    4,949,000            6,160,000
 Organizational Payees: State Institutions,
 Local Governments and Others                                44,150              759,000
 Organizational Payees: Fee-for-Service                         850                81,000
 TOTAL                                                    4,994,000            7,000,000

Washington State Department of Social and Health Services

WSDSHS is a State agency charged with protecting children from abuse and neglect,
providing family reconciliation services, arranging for foster home care and adoption
services, and licensing child care providers. WSDSHS received about $8 million in SSA
benefit payments from May 1, 2000 through April 30, 2001 for 2,144 SSA beneficiaries.
All of the beneficiaries were children who lived in a foster care home, a group home, or
an institution.

SCOPE AND METHODOLOGY
Our audit covered the period May 1, 2000 through April 30, 2001.

To accomplish our objectives, we:

·   Reviewed the Social Security Act and SSA policies and procedures pertaining to
    Rep Payees.

·   Contacted SSA regional office and field office staffs to obtain background
    information about WSDSHS performance as a Rep Payee.

·   Reviewed previous on-site reviews performed by SSA.

·   Obtained from SSA’s Representative Payee System (RPS) a list of individuals who
    were in WSDSHS’ care as of April 30, 2001 or whose benefits ceased after
    May 1, 2000.

·   Obtained from WSDSHS a list of individuals who were in its care and had received
    SSA funds as of April 30, 2001.


Financial-Related Audit of WSDSHS – An Organizational Rep Payee for SSA (A-13-02-12010)     2
·   Compared and reconciled the Agency’s RPS list to WSDSHS’ list to identify the
    population of SSA beneficiaries who were in WSDSHS’ care from May 1, 2000 to
    April 30, 2001.

·   Reviewed WSDSHS’ internal controls over the receipt and disbursement of SSA
    benefit payments.

·   Performed the following tests for a random sample of 100 beneficiaries.

    -   Compared and reconciled benefit amounts received according to WSDSHS’
        records to benefit amounts paid according to SSA’s payment records.

    -   Reviewed WSDSHS’ accounting records to determine whether benefits were
        properly spent or conserved on the individual’s behalf.

    -   Traced a sample of expenses to source documents and examined the underlying
        documentation for reasonableness and authenticity.

·   Determined whether WSDSHS effectively monitored and reported to SSA changes
    in beneficiaries’ circumstances that affected benefit eligibility.

·   Interviewed a sample of foster parents to determine whether the beneficiaries’ basic
    needs were being met.

·   Reviewed a sample of RPRs to determine whether WSDSHS properly reported to
    SSA how benefits were used.

·   Reviewed a sample of Representative Payee Applications (SSA-11) to determine
    whether authorized agents of WSDHS properly signed them.

·   Obtained information on the amount of benefits WSDSHS may have to repay to
    former and current SSA beneficiaries in its care because of a Washington State
    Supreme Court decision.

·   Obtained the current status of WSDSHS’ appeal to the U.S. Supreme Court.

We performed our audit in Olympia, Washington, and Baltimore, Maryland, from
June 2001 to March 2002. We conducted our audit in accordance with generally
accepted government auditing standards.




Financial-Related Audit of WSDSHS – An Organizational Rep Payee for SSA (A-13-02-12010)   3
                                                     Results of Review
Our audit showed that WSDSHS generally (1) had effective safeguards over the receipt
and disbursement of Social Security benefits and (2) ensured that Social Security
benefits were used and accounted for in accordance with SSA’s policies and
procedures. However, we identified two areas where WSDSHS could improve its
performance as a Rep Payee. WSDSHS did not title its bank accounts to reflect the
interest of SSA beneficiaries or use direct deposit.

We also identified one area where SSA needs to improve its monitoring of Rep Payees.
Specifically, we found that WSDSHS was the Rep Payee for 10 beneficiaries who were
not recorded in SSA’s Representative Payee System (RPS).

Bank Accounts          The Social Security Act states that any benefits that are not
Were Not               needed for the beneficiaries’ immediate or reasonably
Properly Titled        foreseeable current needs must be conserved or invested. All
                       investments must show that the Rep Payee holds the benefits in
                       trust for the beneficiary.4 These funds may be deposited in an
interest- or dividend-bearing account in a bank, trust company, or credit union that is
insured under either Federal or State law. SSA policy states that a Rep Payee may
establish collective checking and savings accounts to hold monies belonging to several
beneficiaries. However, to protect the beneficiaries’ funds, the account title must show
that the funds belong to the beneficiaries and not the Rep Payee.5

The Federal Deposit Insurance Corporation (FDIC) insures bank deposits up to
$100,000 per individual.6 FDIC provides additional coverage of $100,000 per individual
for collective bank accounts if the account is properly titled to show the fiduciary
relationship between the account holder and its clients. FDIC recognizes a claim for
insurance coverage based on a fiduciary relationship only if the relationship is expressly
disclosed, by way of specific references, in the bank’s deposit account records.7 We
contacted FDIC’s Legal Division for it’s interpretation of proper bank titling requirements.
FDIC said that it prefers specificity in titling account records when it has to determine
insurance amounts in the case of bank failure. With more titling specifics, the FDIC can
more easily identify insured beneficiaries in situations where deposit account records do
not clearly identify depositors’ ownership of the accounts.




4
    20 C.F.R. 404.2045, 416.645.
5
    Program Operations Manual System (POMS), GN 00603.020.
6
    12 U.S.C. § 1821(a)(1).
7
    12 C.F.R. § 330.5(a)(1) and (b)(1).


Financial-Related Audit of WSDSHS – An Organizational Rep Payee for SSA (A-13-02-12010)   4
WSDSHS has two bank accounts for beneficiary-conserved funds. As of April 2001,
these bank accounts had conserved funds of $1.2 million for 241 beneficiaries.
However, our review found that WSDSHS’ bank accounts were not properly titled to
show the funds belonged to the SSA beneficiaries. In addition, the account was not
properly titled, as required by the FDIC, to insure each beneficiary for $100,000.
WSDSHS told us it was not aware its bank accounts were not titled as required by SSA
and the FDIC. As a result, $1,080,741 in beneficiary funds was at-risk of loss as of
April 30, 2001.


    Account                     Conserved        FDIC Insured        Beneficiary Funds
                                  Funds            Amount                 at Risk
                                                 (based on current
                                                   account title)


    Saving 1                       $1,105,738           $100,000           $1,005,738


    Saving 2                           175,003           100,000               75,003


    TOTAL                          $1,280,741           $200,000           $1,080,741


WSDSHS needs to revise its collective bank accounts to be properly titled and to insure
each beneficiary for $100,000. Although the accounts do not need to list the specific
beneficiaries by name, the accounts need to show they consist of funds SSA paid that
are being held in trust for the beneficiaries. This would then properly associate the
accounts with the records that WSDSHS regularly maintains and therefore could be
relied upon by the FDIC in the event of a bank failure. An example of an appropriate
account title is WSDSHS Representative-Payee Trust Fund of Social Security Benefits
for Current Wards of the State.

                  Regulations8 adopted under the Debt Collection Improvement Act of
Direct Deposit    19969 require most Federal payments to be made by electronic
Was Not Being funds transfer, otherwise known as direct deposit. However, the
Used              requirement to receive payments by direct deposit can be waived if it
                  would impose a hardship on the individual.10 SSA’s Guide for
Organizational Representative Payees strongly encourages the Rep Payee to have
benefit payments directly deposited in a bank account.



8
    31 C.F.R. § 208.3.

9
    Pub. L. No. 104-134, section 31001(x).
10
     31 C.F.R. § 208.4.


Financial-Related Audit of WSDSHS – An Organizational Rep Payee for SSA (A-13-02-12010)   5
Direct deposit is a secure way of receiving payments and protecting beneficiaries from
the loss, theft, or delays associated with mailing paper checks. For a Rep Payee, direct
deposit is an effective and efficient process that saves the time and effort of handling
numerous benefit checks. WSDSHS receives approximately 1,600 monthly benefit
payments by check rather than direct deposit.

We found the manner in which WSDSHS processed beneficiaries’ checks to be labor-
intensive. Currently, WSDSHS’ mail unit receives beneficiaries’ checks. The mail unit
enters identifying information (for example, name, payment amount, and Social Security
number) into a software program called PC Cash. This information is controlled in
batches for “item counts” and “dollar totals” and is reconciled to the amounts in PC
Cash before the batch is released to the next operation.

The mail unit then forwards the checks, along with the PC Cash file, to the cash unit.
The cash unit prepares a deposit slip and stamps the back of the checks “for deposit
only.” Checks are held in a locked safe until a courier from the bank arrives daily to
obtain the deposits. The cash unit also assigns a State account number and prepares
the cash receipts and summary journal. A copy of the cash receipts and summary
journal is then sent to the Trust Fund Unit to post the receipts to the beneficiary’s
ledger.

WSDSHS acknowledged the benefits of using direct deposit and plans to use it when its
new accounting system is implemented in about 1 year.

Not All                     The Omnibus Budget Reconciliation Act of 199011 requires
Beneficiaries Were          SSA to provide for specific identification and control of all Rep
Recorded in the             Payees and the beneficiaries they serve. As a result, SSA
Representative              established RPS, an on-line system for entering and retrieving
Payee System                information about Rep Payees and those applying to be Rep
                            Payees. RPS contains data about Rep Payee applicants,
beneficiaries in the Rep Payee’s care, and the relationship between the Rep Payee and
the beneficiaries. In addition, SSA uses the RPS to select a sample of beneficiaries for
review during its site visits of Rep Payees.

To determine the number of beneficiaries in WSDSHS’ care, we compared WSDSHS
records to information contained in RPS. As a result, we identified 10 beneficiaries for
whom WSDSHS was serving as the Rep Payee but for whom WSDSHS was not
recorded as the Rep Payee on the RPS.

We analyzed information pertaining to these beneficiaries to determine why WSDSHS
had not been recorded on RPS as the Rep Payee. We found that SSA personnel can
by-pass RPS to establish a Rep Payee. Agency staff can establish a Rep Payee by
identifying individuals or organizations as the beneficiaries’ Rep Payee directly on the
Master Beneficiary Record or the Supplemental Security Record. We provided SSA
the names of the 10 beneficiaries so it could add them to RPS.
11
     Pub. L. No. 101-508, sec. 5105, codified at 42 U.S.C. § 405(j)(2).


Financial-Related Audit of WSDSHS – An Organizational Rep Payee for SSA (A-13-02-12010)     6
                                                   Conclusions and
                                                  Recommendations
Generally, WSDSHS (1) had effective safeguards over the receipt and disbursement of
Social Security benefits and (2) did ensure that Social Security benefits were used and
accounted for in accordance with SSA’s policies and procedures. However, WSDSHS
should title its bank accounts to reflect the interest of SSA beneficiaries and use direct
deposit to improve operational efficiency and safeguards over receipt of beneficiary
payments. Also, SSA could improve the information about WSDSHS contained within
the RPS. We recommend that SSA:

1. Direct WSDSHS to change its bank account titles to show that conserved funds
   belong to the beneficiaries and to ensure the FDIC insures each beneficiary for
   $100,000.

2. Ensure that WSDSHS uses direct deposit for all beneficiaries in its care.

3. Correct RPS to include all beneficiaries for whom WSDSHS was selected as Rep
   Payee.

AGENCY COMMENTS
SSA agreed with all of our recommendations. SSA also reported that corrective actions
had already been completed on two of the findings. (See Appendix A for the full text of
SSA’s comments.)

REP PAYEE COMMENTS
We requested WSDSHS to comment on the findings and recommendations related to
its duties as a Rep Payee (Recommendations 1 and 2).

WSDSHS stated it re-titled benefit accounts to ensure all beneficiaries’ funds are
protected from loss. WSDSHS also agreed to implement direct deposit for all
beneficiaries in its care. (See Appendix B for the full text of WSDSHS’ comments.)




Financial-Related Audit of WSDSHS – An Organizational Rep Payee for SSA (A-13-02-12010)      7
                                                                    Other Matters
                  One method SSA uses to monitor Rep Payees is the RPR. The
Representative    RPR is intended to assist SSA in determining the (1) use of benefits
Payee Reports     during the preceding 12-month reporting period, (2) Rep Payee’s
                  continuing suitability, and (3) continuing need for representative
          12
payment. Depending on the Rep Payee’s responses, SSA may contact the Rep
Payee to determine its continued suitability. We found that SSA could not always
retrieve WSDSHS’ completed RPRs.

As part of our audit, we planned to review a sample of completed RPRs to determine
whether WSDSHS met its reporting responsibilities. We requested the most recently
completed RPRs for 30 beneficiaries. However, SSA only provided 13 of the 30 RPRs
we requested. For the remaining 17, we could not determine whether WSDSHS
properly submitted RPRs.

                      On October 11, 2001 the Washington State Supreme Court held
Washington            that WSDSHS as a Rep Payee violated the Social Security Act.13
State Supreme         In its decision, the Washington State Supreme Court held that
Court Decision        WSDSHS is prohibited from using a foster child's OASDI or SSI
benefit payments to pay the costs the State incurs in providing that child’s foster care,
including food, shelter, and clothing.14 The Washington State Supreme Court decision
requires WSDSHS to establish a fund to pay back approximately $77 million in benefit
payments covering the period from April 18, 1977 through October 31, 2001. This
amount continues to grow by approximately $7 million per year.

On October 31, 2001 WSDSHS filed a motion with the Washington State Supreme
Court for a reconsideration of its ruling. The Washington State Supreme Court denied
the reconsideration on December 14, 2001. WSDSHS filed a motion with the U.S.
Supreme Court for a temporary stay of the Washington State Supreme Court order and
was granted a temporary stay on January 29, 2002. A permanent stay was granted on
March 13, 2002. WSDSHS filed on March 14, 2002 a petition with the U.S. Supreme
Court to review the case. On May 28, 2002 the U.S. Supreme Court agreed to hear
WSDSHS’ appeal.

The Solicitor General filed a brief on March 1, 2002, stating that, under the Social
Security Act and implementing regulations, and the Commissioner of Social Security
interpretation thereof, a State agency appointed as Rep Payee may use Social Security
and SSI benefit payments to pay the costs of the child’s foster care.

12
     SSA POMS, GN 00605.066, GN 00605.067, GN 00605.090, GN 00605.221.
13
     42 U.S.C. § 207.
14
   Estate of Keffeler v. State of Washington Department of Social and Health Services, 145 Wn.2d 1, 32
P.3d 267 (2001).


Financial-Related Audit of WSDSHS – An Organizational Rep Payee for SSA (A-13-02-12010)                  8
                                           Appendices




Financial-Related Audit of WSDSHS – An Organizational Rep Payee for SSA (A-13-02-12010)
                                                                         Appendix A

Agency Comments




Financial-Related Audit of WSDSHS – An Organizational Rep Payee for SSA (A-13-02-12010)
                                                      Social Security Administration
Refer To: S2DXG3:RSN                                              MEMORANDUM
Date:   September 20, 2002

From: Regional Commissioner
      Seattle Region

Subject: Draft Report of Financial Audit of Washington State Department of Social and Health
         Services A-13-02-12010 (Your memorandum Dated 08/28/02) - REPLY

To:     Inspector General
        Office of the Inspector General


Thank you for the opportunity to comment on the draft findings of the Washington State
Department of Social and Health Services (WSDSHS) financial audit. I am pleased to report that
corrective action has already been completed on two of the three items identified, and that action
has been initiated on the third, with completion expected by March 2003. Specifics follow:

Improperly Titled Bank Accounts
Subsequent to the OIG visit, the Olympia field office (FO) worked closely with WSDSHS to
ensure that the collective bank account into which Social Security benefits are deposited is
correctly titled. WSDSHS is currently changing banks from US Bank to Heritage Bank. All
accounts are now correctly titled to reflect that the funds belong to the beneficiaries, thus
ensuring FDIC coverage of $100,000 per individual.

Direct Deposit Not Utilized by WSDSHS
WSDSHS has assured SSA that they intend to establish payment by direct deposit for all SSA
beneficiaries upon completion of a new accounting software program. They anticipate that this
program will be completed by March 2003. The Olympia office will work closely with WSDSHS to
ensure a smooth transition to direct deposit for all beneficiaries that WSDSHS serves.

Some Beneficiaries Not Recorded in the Representative Payee System
The Representative Payee System (RPS) yields a wealth of information about representative
payees and the beneficiaries that they serve. However, payee records established manually or
before the implementation of RPS are not recorded in this system. The OIG audit uncovered ten
cases that were not recorded in RPS. The Olympia FO obtained a complete list of SSA
beneficiaries who receive payee services from WSDSHS. All individuals who receive payee
services from WSDSHS are now loaded into RPS.


If your staff have any questions, they may contact Joan Nicholson by phone at 206-615-2133, by
fax at 206-615-2643, or by email at Joan.Nicholson@ssa.gov.




                                       Carmen Maria Keller

cc:     ORC
        AD I
                                  Appendix B

Representative Payee’s Comments
                 11:33   FAX 360   902   7903         CA HEADQUARTERS                                     141002/002




                                                   STATEOF WASHINGTON

                             DEPARTMENT OF SOCIAL AND HEALTH SERVICES
                                                   Olympia WA 98504-5000

                                                    September26, 2002


             Mr. JamesG. Huse, Jr, Inspector General
             Office of the Inspector General
             Social Security Administration
             External Affairs Division
             Suite 300, Altmeyer Building
             6401 Security BoulevardBaltimore,:MD
                              21235

             DearMr. Huse:

             Thank you for the opportunity to respond to the Social Security Administration's draft report,
             Financial-Related Audit of the WashingtonState Department ofSocial and Health Sel'Vices-An
             Organizational RepresentativePayeefor the Social Security Administration (A-13-02-120 10).
             We are pleased that the audit showed that Washington State generally had effective safeguards
             and ensuredbenefits were used appropriately.

             We concur with the two very minor findings from the report and we believe that the report
             should reflect the minor nature of these findings. The first is a change in how benefit accounts
             are titled and the second is a suggestedoperational efficiency. My staff, in consultation with
             SSA attorneys, have re-titled benefit accountsin accordancewith new direction from SSA to
             ensure that all beneficiaries' fun~ are protected from loss. We also concur that operational
             efficiencies and safeguardswould be improved by direct deposit of beneficiaries' funds. We will
             be able to implement that change when the truSt funds accounting system is implemented. The
             targeted implementation date for the systemis January2003.

             Again, thank you for the opportunity to respond to your office's draft report. If you have any
             questions or wish to discuss these comments,please contact Peggy Brown, Director, Children's
             Administration, Management Services Division at (360) 902-7910 or bpeg300@dshs.wa.gov.

                                                         Sincerely,




                    Rosalyn Oreskovich
                    Peggy Brown
                    JudyDevine



~
)9/26/2002
                                                                       Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts
    Shirley E. Todd, Director, General Management Audit Division (410) 966-9365

    Jim Klein, Audit Manager (410) 965-9739


Acknowledgments
In addition to the persons named above:

    Randy Townsley, Auditor-in-Charge

    Janet Stein-Pezza, Senior Program Analyst

    Alan Carr, Senior Auditor

    Gerald Hockstein, Senior Program Analyst

    Linda Webester, Auditor

    Kimberly Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-13-02-12010.
                           DISTRIBUTION SCHEDULE

                                                                          No. of
                                                                         Copies

Commissioner of Social Security                                               1
Management Analysis and Audit Program Support Staff, OFAM                    10
Inspector General                                                             1
Assistant Inspector General for Investigations                                1
Assistant Inspector General for Executive Operations                          3
Assistant Inspector General for Audit                                         1
Deputy Assistant Inspector General for Audit                                  1
 Director, Data Analysis and Technology Audit Division                        1
 Director, Financial Audit Division                                           1
 Director, Southern Audit Division                                            1
 Director, Western Audit Division                                             1
 Director, Northern Audit Division                                            1
 Director, General Management Audit Division                                  1
Team Leaders                                                                 25
Income Maintenance Branch, Office of Management and Budget                    1
Chairman, Committee on Ways and Means                                         1
Ranking Minority Member, Committee on Ways and Means                          1
Chief of Staff, Committee on Ways and Means                                   1
Chairman, Subcommittee on Social Security                                     2
Ranking Minority Member, Subcommittee on Social Security                      1
Majority Staff Director, Subcommittee on Social Security                      2
Minority Staff Director, Subcommittee on Social Security                      2
Chairman, Subcommittee on Human Resources                                     1
Ranking Minority Member, Subcommittee on Human Resources                      1
Chairman, Committee on Budget, House of Representatives                       1
Ranking Minority Member, Committee on Budget, House of Representatives        1
Chairman, Committee on Government Reform and Oversight                        1
Ranking Minority Member, Committee on Government Reform and Oversight         1
Chairman, Committee on Governmental Affairs                                   1
Ranking Minority Member, Committee on Governmental Affairs                    1
Chairman, Committee on Appropriations, House of Representatives               1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                            1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate               1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                                1
Ranking Minority Member, Committee on Finance                                 1
Chairman, Subcommittee on Social Security and Family Policy                   1
Ranking Minority Member, Subcommittee on Social Security and Family Policy    1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                    1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                       1
Regional Public Affairs Officer                                               1
Washington State Department of Social and Health Services                     1


Total                                                                        97
                   Overview of the Office of the Inspector General


                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                   Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.


                                       Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                                  Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
